Case no.

2/-^/
IN THE

SUPREME COURT OF THE UNITED STATES
Barbara A Silva
Petitioner
VS.
The United States of America
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE TENTH CIRCUIT

Barbara A Silva: Petitioner
Pro Se
206 San Diego Drive
Jemez Springs NM 87025
575-829-4459
Home
505-362-9805
Cell:
E-mail: bsilvalsmile@gmail.com
Manuel Lucero U.S. Attorney: Respondent
Paige Messec U.S. Attorney
P.Q. Box 607
201 3rd St NW Suite 900
Albuquerque NM 87103
505-224-1467
Phone:
Mannv.Lucero@doi.gov
E-mail:

Received
AUG 2 7 2021
SUPREMECni^1-^1^

1

Supreme Court Of the United States Silva v. U.S,

Case no.

QUESTION(S) PRESENTED

1) Under Privacy Act of 1974, as amended, 5 U.S.C § 552a.
(2)(c)(d),(6), (9), (10).

a) Is the Agency required to maintain accurate information on
each

individual,

information (PPI).

and

to

not

disclose

a

person

protected

Should this also be valid when issuing two

people the same SSN and each of the individuals have access to
the others information and causes harm?

b) Does this provide the district courts with subject matter
Jurisdiction Under FTCA when violated pursuant to 5 U.S.C.
552a (1) Civil Remedies - (c)(d), (2)(a)(b), (3)(a)(b), (4)(a)(b)
and (5)?

2) Are the exceptions under 28 U.S.C. 2680(h) a generic way
for the United States to get out of the waiver of sovereign
immunity under FTCA 28 U.S.C. 1346(b)?

2

Supreme Court Of the United States Silva v. U.S,

Case no.

3) In the 14th amendment of the constitution it states “No
state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor
shall

any

state

deprive

any

person

of life,

liberty

or

property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.”
Would the United States be in violation of the 9th amendment
& 14th amendment of the United States Constitution by
negligently issuing to one person, another’s social security
number and causing harm?

4) Is the But-For causation Sine Qua Non rule in negligence
cases?
Would this not apply to this Particular case?

3

Supreme Court Of the United States Silva v. U.S,

Case no.

Table of Contents

OPINION BELOW

04

JURISDICTION

05

CONSTITUTIONAL PROVISIONS AND STATUTES
INVOLVED

06

STATEMENT OF CASE

14

REASON FOR GRANTING PETITION

23

Petitioner Barbara Silva respectfully prays that a writ of
certiorari be issued to review judgment below.

Report for case No; 21-2005 10th Circuit Court of Appeals.
Filed 06/03/2021 (Honorable Judge Nancy L Moritz)

Report for Case No:
findings
Judge

17-cv-01224-MV-JHR

Supplemental

and recommended disposition of the Magistrate
(The

Honorable

Judge

Jerry

H.

Ritter)

Filed

11/12/2020 Document 46.

Opinion for Case No: 17-cv-01224-MV-JHR — Memorandum
opinion and order on report and recommendation of the

4

Case no.

Supreme Court Of the United States Silva v. U.S,

Magistrate Judge (by The Honorable District Judge Martha
Vasquez) Filed 01/04/2021 Document 49.

No petition for rehearing or hearing en banc was filed in
this case.

JURISDICTION

The jurisdiction of this Court is invoked under 28 U.S.C
§ 1257(a)

5

Supreme Court Of the United States Silva v. U.S,

Case no.

CONITUTIONAL PROVISIONS, STATUTES AND RULES

Rule 12(b)(6)

Federal Tort Claims Act (FTCA), 28 U.S.C. 2672

The First Amendment (Amendment I) to the United States
Constitution:
Petition the Government for a redress of grievances.

Article

[VII]

(Amendment

7

Civil

Trials)

In Suits at common law, where the value in controversy shall
exceed twenty dollars, the right of trial by jury shall be
preserved, and no fact tried by a
Jury, shall be otherwise re-examined in any Court of the
United States, than according to the rules of the common
law.

6

Case no.

Supreme Court Of the United States Silva v. U.S,

Article (XIV) (Amendment 14 guaranteed all citizens
“equal protection of the laws.”)

The

Due

governments

Process
from

Clause

prohibits

depriving persons

state
of life,

and

local

liberty,

or

property without a fair procedure.

The

Ninth Amendment (Amendment IX) to the

United

States Constitution:
The enumeration in the Constitution of certain rights shall
not be construed to deny or disparage other rights.

The

Fourteenth

Amendment

(Amendment ,XIV)

to

the

United States Constitution
Section 1 — No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to
any person within its jurisdiction of equal protection of the
laws.

7

Supreme Court Of the United States Silva v. U.S,

Case no.

United States Privacy Act of 1974 (5 U.S.C 552(a)(5)(6)
(a) Establishes a code of fair information practices that
governs the collection, maintenance, use, and dissemination
of information

about

individuals

that

is

maintained

in

systems of records by federal agencies.
(5)“system of records” means a group of any recorders under
the control of any agency from which information is retrieved
by the name of the individual or by some identifying number.
(6)”Statistical record” maintained for reporting purposes and
not used in whole or in part in making any determination
about

an

identifiable

individual

except

as

provided

by

section 8 of title 13.

28 U.S. Code 1346(b)

8

Supreme Court Of the United States Silva v. U.S,

Case no.

TABLE OF AUTHORITIES CITED

Spokeo, Inc v. Robins No. 13-1339 (2016):SCOTUS
15 U.S.C 1681 e (b).

Imposes liability on any person who

willfully fails to comply with any requirement of the act with
respect to any individual § 1681n(a).

Comcast

Corporation

v

National

Association

of African

American owned media and Entertainment Studio Networks
Inc

No.18-1171.

SCOTUS

Utilization

of

the

But-For

Causation in Liability

U.S. v. Gaubert, 499 U.S. 315, 322-23. (’91)

Berkovitz v. U.S., 486 U.S. 531, 536 ('88). See Kennewick
Irrigation Dist. v. U.S., 880 F.2d 1018, 1025 (9th Cir.’89).
Calkins v. Cox Estates, the court stated the foreseeability is
an integral part of duty: If it is found that a plaintiff, and
injury to that plaintiff, were foreseeable, then a duty is owed
that plaintiff by the defendant." 110 N.M. 59, 62, 792 P.d 36,
39 (1990)(quoting Ramirez, 100 N.M at 541, 673 P.2d at 825)

9

Supreme Court Of the United States Silva v. U.S,

Case no.

The Federal Tort Claims Act (June 25, 1946, ch. 646, Title
IV, 60 Stat. 812, "28 U.S.C. Pt.VI Ch.171" and 28 U.S.C.
1346(b)) ("FTCA") and Federal Tort Claims Act (FTCA) 20
CFR Part 429, Subpart A. In accordance with 429.10 1 that
states:

"This subpart applies only to claims filed under the Federal
Tort Claims Act, as amended, 28 U.S.C. 2671- 2680 (FTCA),
for money damages against the United States for damage to
or loss of property or personal injury or death that is
caused by the negligent or
wrongful

act or omission of an employee

of the

Social

Security Administration (SSA), The loss, damage, injury or
death must be caused by the employee in the performance of
his or her official duties, under circumstances in which the
United

States,

if a private

person,

would be

liable

accordance with the law of the place where the

in

act or

omission occurred.
Calkins v. Cox Estates
110 N.M. 59, 62, 792 P.d 36, 39 (1990)(quoting Ramirez, 100
N.M at 541, 673 P.2d at 825).

10

Supreme Court Of the United States Silva v. U.S,

Case no.

110 NM. At 63, 792 P.2d at 40. Supreme court in Calkins also
considered the “relationship of the parties, the Plaintiffs
injured

interest’s

and

the

defendants

conduct;

it

is

essentially a policy decision based on these factors that the
plaintiffs interests are entitled to protection.”
Dalehite v United States, supra, at 36
Administrative Procedure ACT
Sections 303(a)(1) and 303(a)(3) of the Social Security Act
(SSA) (42 U.S.C. 503(a)(1) and (3))
20 C.F.R. Part 614, Appendix B). When ID issues arise
through a cross-match with a federal database, the Computer
Matching and Privacy Protection Act of 1988 (CMPPA), 5
U.S.C. 552a, also applies. 1137(a)(1)

5 U.S. Code § 552a,(g)(l)(c)(d), (4)(A)(B), (5)
G(l) Civil Remedies
(C) fails to maintain any record concerning any individual
with such accuracy, relevance, timeliness, and completeness
as is necessary to assure fairness in any determination
relating

to

the

qualifications,

character,

rights,

or

opportunities of, or benefits to the individual that may be
made on the basis of such record, and

11

Case no.

Supreme Court Of the United States Silva v. U.S,

consequently a determination is made which is adverse to the
individual; or (D) fails to comply with any other provision of
this section, or any rule promulgated thereunder, in such a
way as to have an adverse effect on an individual, the
individual may bring a civil action against the agency, and
the

district

courts

of

the

United

States

shall

have

jurisdiction in the matters under the provisions of this
subsection.
(4)
In any suit brought under the

provisions of subsection

(g)(1)(C) or (D) of this section in which the court determines
that the agency acted in a manner which was intentional or
willful, the United States shall be liable to the individual in
an amount equal to the sum of—
(A) actual damages sustained by the individual as a result of
the refusal or failure, but in no case shall a person entitled
to recovery receive less than the sum of $1,000; and (B) the
costs of the action together with reasonable attorney fees as
determined by the court.

12

Case no.

Supreme Court Of the United States Silva v. U.S,

(A) actual damages sustained by the individual as a result of
the refusal or failure, but in no case shall a person entitled
to recovery receive less than the sum of $1,000; and (B) the
costs of the action together with reasonable attorney fees as
determined by the court.

(5) An action to enforce any liability created under this
section may be brought in the district court of the United
States in the district in which the complainant resides, or
has his principal place of business, or in which the agency
records are situated, or in the District of Columbia, without
regard to the amount in controversy, within two years from
the date on which the cause of action arises, except that
where an agency has materially and willfully misrepresented
any information required under this section to be disclosed
to an individual and the information so misrepresented is
material to establishment of the liability of the agency to the
individual under this section, the action may be brought at
any time within two years after discovery by the individual
of the misrepresentation. Nothing in this section shall be
construed to authorize any civil action by reason of any
injury sustained as the result of a disclosure of a record
prior to September 27, 1975.
13

Supreme Court Of the United States Silva v. U.S,

Case no.

STATEMENT OF THE CASE

Defendant negligently issued a social security number
(hereinafter referred to “SSN”) to Barbara Silva (Petitioner)
that belonged to another citizen causing serious harm.
could

have

been

avoided

if

the

Social

This

Security

Administration (hereinafter referred to “SSA”) had followed
policy.
There were several things in the policy they did not
follow.

For instance, they did not look at the year of birth

for both parties. If they had, they would have seen that the
persons were one year apart in age. They did not look at the
last name of either person, which were different.

They did

not look at the state in which either lived in. They lived in
different states. Had they done even just one of these things
it would have thrown up a red flag and this would never have
occurred.
The

SSA’s

letter

alone

provides proof of this.

acknowledges

their

error

and

According to the SSA on Identity

verification and integrity is a top priority of the Department.
The events following the issuance of the SSN qualify under
the “but-for” causation (Sine Qua Non).
14

Supreme Court Of the United States Silva v. U.S,

Case no.

The Government and lower courts contend that this the
complaint is “based on the injuries to reputational and
economic

interests

and

that

her

claim

sounded

in

defamation, negligent misrepresentation, interference with
contractual rights, and negligent or intentional infliction of
emotional distress” R.196 which are barred by 28 U.S.C. §
2680(h) which provides that the government may not be sued
in tort for “any claim arising out of assault, battery, false
imprisonment, false arrest, malicious prosecution, abuse of
process,

libel,

slander,

misrepresentation,

deceit,

or

interference with contract rights.” Both the government and
lower

courts

have

utilized

2680(h)

generically

specifically and in turn violated Petitioner’s

but

rights

not

under

the Constitution and regulations as follows:

I
1st Amendment for petition the government for a redress of
grievances, Article 7, and the 9th & 14th Amendments of the
U.S. Constitution and the United States Privacy Act of 1974
5 U.S.C. 552(a)(5)(6) and the Fair Credit Reporting Act of
1970 (FCRA) Spokeo Inc v. Robins No. 13-1339 (2016).
15

Supreme Court Of the United States Silva v. U.S,

Case no.

Utilizing

28

U.S.C.

1346(b)(1)

subject-matter jurisdiction
property,

under

authorizes
negligence

the
for

courts
loss

of

or personal injury caused by the negligent or

wrongful act or omission of any employee of the Government
while acting within the scope of his office or employment.
With the Privacy Act and FCRA the government did not
comply with the requirements of the act with respect to any
individual,

which

therefore

imposes

liability

on

the

Government. This also provides subject-matter jurisdiction.
Petitioner was able to establish (1) injury in fact (Monetary
loss from Veteran Disability payments and benefits)

(2)

Traceable to the conduct of'the defendant (Issuing the SSN
of another to Petitioner)(3) favorable judicial decision.

II
The

government

and

lower

courts

held

that

the

applicability of FTCA exceptions and “Plaintiffs failure to
demonstrate analogous tort liability under New Mexico state
law as required by 28 U.S.C. 1346(b)(1).

16

Supreme Court Of the United States Silva v. U.S,

Case no.

With the unusual circumstances of this case there are
Zero similar cases in all of the United States of America
Courts.

U.S. supreme Court, U.S. v. Gaubert, 499 U.S. 315

(1991)(held) This case is about the discretionary function
exception that covers acts involving an element of judgment
or choice if they are based on considerations of public policy.
It is the nature of the conduct, rather than the status of the
actor, that governs whether the exception applies.

If an

employee obeys the direction of a mandatory regulation, the
Government will be protected; and if an employee violates a
mandatory regulation, there will be no shelter from liability,
because there is no room for choice, and the action will be
contrary to policy. In this case the government should not be
protected because in no way did they follow the mandatory
policy.
Therefore this provides a claim in which relief can be
granted.

Ill
The

government

contends

that

damages

to

Barbara’s

reputation as a result of the Administration’s false

17

Supreme Court Of the United States Silva v. U.S,

Case no.

statements, the United States retains immunity “based on §
2680(h) exceptions for libel and slander. R.197
The courts claim damages to Silva’s reputation falls under
libel

and

slander.

However,

made

SSA,

statement

by

there

they

was

never

negligently

a

issued

false
her

another’s SSN which ruined Silva’s reputation, happiness
and finances, therefore, this exception does not qualify under
2680(h).

This falls under Sine Qua Non rule of the But-for

causation. Comcast Corporation v National Association of
African American owned media and Entertainment Studio
Networks Inc No.18-1171

IV
The

Lower

Courts found Silva’s complaint to sound in

misrepresentation, interference with contractual rights, and
negligent or intentional infliction of emotional distress.

Petitioner contends the SSA issuing a SSN belonging to
another citizen is not any of the above, and that
with

contractual

rights,

and

negligent

or

intentional

infliction of emotional distress (these should fall under the
law enforcement proviso) In Calkins v. Cox Estates, the court

18

Supreme Court Of the United States Silva v. U.S,

Case no.

stated the foreseeability is an integral part of duty: If it is
found that a plaintiff, and injury to that plaintiff, were
foreseeable, then a

duty

is

owed

that

plaintiff

by

the

defendant." 110 N.M. 59, 62, 792
P.d 36, 39 (1990)(quoting Ramirez, 100 N.M at 541, 673 P.2d
at 825).

Supreme court in Calkins also considered the “relationship of
the

parties,

the

Plaintiffs

injured

interest’s

and

the

defendants conduct; it is essentially a policy decision based
on these factors that the plaintiffs interests are entitled to
protection.” 110 NM. At 63, 792 P.2d at 40.
following

policy

or

the

lack

there

of,

How does
fall

under

misrepresentation, interference with contractual rights, and
negligent or intentional infliction of emotional distress? It
does not.
Dalehite v United States, supra, at 36 (“where there is room
for policy judgment and decision there is
Discretion”) in sum, the discretionary function exception
insulates the Government from liability if
the action challenged in the case involves the permissible
exercise of policy judgment.

19

Supreme Court Of the United States Silva v. U.S,

Case no.

There should not be any doubt or discretion to the policy
of issuing SSN’s.

The Government should be held liable for

this tortfeasance.

V
The lower courts erred when stating that Silva had raised a
new theory of government liability and was treating her
complaint as an action under some other statute, and did not
address the issues raised for the first time in her reply brief.
This is inaccurate, Silva (Pro Se) may not have used the
correct verbiage throughout the case never the less the
actions were addressed. Silva has always treated this case as
a Federal Tort Claims Act Negligence case.

VI
The lower court stated Silva alleged a sufficient injury and
establish Article III standing but did not establish subjectmatter jurisdiction for claims in which the government had
not waived its sovereign immunity.

This is where the lower

court erred in their decision.
The

FTCA

under

negligence

provides

subject-matter

jurisdiction. The SSA’s policy is as follows:
20

Case no.

Supreme Court Of the United States Silva v. U.S,

The Federal Tort Claims Act (June 25, 1946, ch. 646, Title
IV, 60 Stat. 812, "28 U.S.C. Pt.VI Ch.171" and 28 U.S.C.
1346(b)) ("FTCA") and Federal Tort Claims Act (FTCA) 20
CFR Part 429, Subpart A. In accordance with 429.10 1 that
states:

"This subpart applies only to claims filed under the Federal
Tort Claims Act, as amended, 28 U.S.C. 2671- 2680 (FTCA),
for money damages against the United States for damage to
or loss of property or personal injury or death that is
caused by the negligent or wrongful act or omission of an
employee of the Social Security Administration (SSA).”

21

Case no.

Supreme Court Of the United States Silva v. U.S,

Reason for granting the Petition

The New Mexico District court and the United States
court of appeals have erred in their decisions for this case.
Jurisdiction should have been approved under the FTCA as
well as 5 U.S.C 552a.
The United States Constitution and Federal Law have
authorized to me,

as a Citizen of the United States of

America, certain rights and protections.

When the United

States violates these rights and protections, they need to be
held to a higher standard of accountability. When the Social
Security Administration issues one number to two separate
individuals, it causes a violation in the following:

United States Privacy act; But-for causation. Both persons
involved can see the others information i.e. Date of birth,
address, family members, credit files, jobs and locations,
criminal history, education and the list goes on.

22

Supreme Court Of the United States Silva v. U.S,

Case no.

United

States

causation.

Fair

Credit

Reporting

Act;

But-for

Mixed credit files, judgments and liens placed on

the wrong person, credit collection errors and harassment
from those collections.

United States Constitution First Amendment; Petition the
Government for a redress of grievances.

United

States

Constitution

Fourteenth

Amendment

(Article XIV); The due process clause prohibits state and
local governments from depriving persons of life, liberty or
property without a fair procedure. As a citizen of the United
States, the issuing of the SSN is one of the government’s
mandatory

requirements.

When

they

issue

someone

another’s SSN, they deprive that person of life, liberty and
property as well as happiness. The lower courts have denied
me equal protection of the laws.

23

Supreme Court Of the United States Silva v. U.S,

Case no.

5 U.S.C. § 552A - Records maintained on individuals

This case is not just about what has happened to the
Petitioner, but what it means to others when Policies are not
followed within the Government.

Then the Government

decides to hide the truth when they did make an error.

If

Petitioner had known the true cause at the beginning, maybe
Ms Silva could have approached the corrections of Records
differently.

The SSA should not have had an issue supplying a letter
for the Navy.
have

other

Yet they would not.
than

to

hide

the

What reason would they
fact

that

Policies

and

Regulations were violated and they did not want to be held
accountable for their actions? (But-for causation) By doing
so, they deprived Ms Silva of Veteran benefits, Medical
benefits, Disability benefits and retirement benefits for 30
years.

What happens to the next person when they find out

and how many identity theft cases are really SSA errors?

24

Supreme Court Of the United States Silva v. U.S,

Case no.

The United States Supreme Court should decide this case.
There are no authorities to help with this kind of FTCA
negligence

case.

The

People

need

to

know

that

the

Government will be held accountable when they violate their
own policies, and to understand how can
life because

they did not want to

destroy a citizen’s

get caught violating

policies, protections and regulations they’ve established.

The Administrative procedure act (APA); Judicial review.
Under the APA, final agency decisions are subject to judicial
review.

The APA provides for judicial review for people and

parties “adversely affected or aggrieved by agency action
with the meaning of a relevant statute or suffering “legal
wrong”,

because

of

agency

action.

This

is

another

qualification for Judicial review under this case as well as
subject-matter Jurisdiction.

Primarily, 5 U.S. Code § 552a,

(g)(l)(c)(d), (4)(A)(B), (5) Records maintained on individuals.
G (1) Civil Remedies, establishes total Jurisdiction to the
District court

25

Case no.

Supreme Court Of the United States Silva v. U.S,

Petitioner respectfully prays this Petition for Writ of
Certiorari be granted so the Supreme Court can clarify cases
where there is several protection of rights categories that
are violated.

Similar within Constitutional and regulatory

standards for the citizens of the United States that are in
conflict with the decisions of the lower courts

Respectfully Submitted:

Barbara A Silva (Pro Se)
57 5-829-44 59 (home)
505-362-9805(cel phone)
bsilvalsmile@gmail.com

26

